HHS/OIG-Audit--"Report to Blue Cross of California for Audit of Medical
Supply Ancillary Costs Claimed by 21 Skilled Nursing Facilities Owned by Horizon
West, Inc., (A-09-98-00097)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Report to Blue Cross of California for Audit of Medical Supply Ancillary
Costs Claimed by 31 Skilled Nursing Facilities Owned by Horizon West, Inc." (A-09-98-00097)
March 23, 1999
Complete
Text of Report is available in PDF format (238 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report to Blue Cross of California, Horizon West Inc.'s (Horizon)
current fiscal intermediary, points out that Horizon misclassified certain
costs as ancillary medical supplies. The costs should have been classified
and claimed as other types of costs, such as routine, dietary, and administrative
and general costs. As a result of this misclassification, Horizon was overpaid
Medicare funds totaling $1.1 million for Fiscal Year (FY) 1991. Horizon concurred
with our findings and voluntarily repaid the Federal Government $1.7 million.
This amount included the $1.1 million we identified as an overpayment plus
an additional $0.7 million to cover our estimate of overpayments made for FYs
1992 through 1995. On February 4, 1999, Horizon agreed to a settlement with
the U.S. Department of Justice and the OIG. As part of this agreement, Horizon
entered into a Corporate Integrity Agreement with the OIG and paid an additional
$2.3 million to settle claims with the Government relating to the audit findings.
We recommended that Blue Cross ensure that medical supplies are properly classified
as ancillary or routine on all Horizon cost reports after the Fiscal Year Ended
June 30, 1995.